                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              ST. CHARLES COUNTY’S
                                              DEPARTMENT OF WORKFORCE DEVELOPMENT
                                              CLAIM TO MISSOURI IS UNSUPPORTED




                                                                        Date Issued: September 28, 2006
                                                                        Report Number: 05-06-001-03-390
U.S. Department of Labor
Office of Inspector General
Office of Audit                                     September 2006

                                                    St. Charles County’s Department of
BRIEFLY…                                            Workforce Development Claim to Missouri
                                                    Is Unsupported
Highlights of Report Number: 05-06-001-03-390, to
the Assistant Secretary for Employment and
Training.                                           WHAT OIG FOUND
                                                    The complainants made several allegations which,
                                                    in general, alleged that DWD overcharged DOL
WHY READ THE REPORT
                                                    grants. We cannot conclude on the merits of these
In 2004, we received two complaints with numerous   allegations because of a lack of critical
allegations which, in general, alleged that         documentation showing how costs actually were
St. Charles County, Missouri, Department of         allocated to the DOL grants. However, since DWD
Workforce Development (DWD) overcharged             and DOF could not provide critical records to
Department of Labor (DOL) grants.                   account for DOL grant funds, they cannot support
                                                    their claim for reimbursement to Missouri.
St. Charles County is a grant subrecipient of       Therefore, we are questioning all WIA and WtW
workforce development funds under the Workforce     grant costs, totaling $4,110,061 for the period July 1,
Investment Act (WIA) and Welfare-to-Work (WtW)      2000 through July 31, 2004.
programs from the Missouri Division of Workforce
Development (Missouri). DWD received                WHAT OIG RECOMMENDED
approximately $5.4 million in WIA and WtW funds,
as well as funding for other Federal programs,      We recommend that the Assistant Secretary for
during our audit period July 1, 2000 through        Employment and Training:
July 31, 2004.
                                                        •   In lieu of DWD’s missing crosswalk
WHY OIG DID THE AUDIT                                       spreadsheets used to allocate costs to DOL
                                                            programs, direct Missouri to submit
We audited the DOL grants at DWD to determine if            alternative documentation to support the
the allegations could be substantiated.                     claimed cost allocations of $4,110,061
                                                            reimbursed to DWD for the period
READ THE FULL REPORT                                        July 1, 2000 through July 31, 2004. Based
To view the report, including the scope,                    on ETA’s determination, recover
methodology, and full agency response,                      unallowable or unsupportable costs.
go to:                                                  •   Direct Missouri to ensure that:
                                                              - DWD allocates costs to DOL programs
http://www.oig.dol.gov/public/reports/                           in accordance with the relative benefits
oa/2006/05-06-001-03-390.pdf                                     received.
                                                              - DWD and DOF maintain adequate
                                                                 records to account for all expenditures
                                                                 of DOL program funds.

                                                    In their response to the draft report, Missouri and
                                                    County officials stated they intend to submit
                                                    alternative documentation as evidence of the clients
                                                    served by these programs and the expenditures
                                                    made on behalf of these programs to assure DOL
                                                    that these grants were accounted for, and used to
                                                    serve clients for which the grants were intended.

                                                    The response did not address Missouri’s actions to
                                                    resolve the other two recommendations.

                                                    All recommendations will be resolved as part of
                                                    ETA’s audit resolution process.
                                                             St. Charles County’s Department of Workforce
                                                            Development Claim to Missouri Is Unsupported




Table of Contents
                                                                                                               PAGE

EXECUTIVE SUMMARY ........................................................................................... 3


ASSISTANT INSPECTOR GENERAL’S REPORT ................................................... 5

   The Public Accounting Firm That Performed the 2001, 2002, and 2003 Single
     Audits Did Not Audit Only Revenue, as Alleged. ............................................... 6

   DWD Did Not Reimburse DOF For Workers’ Compensation Premiums Through
     Payroll Withholding, as Alleged. ........................................................................ 6

   DWD and DOF Cannot Support their Reimbursement Claim to Missouri for DOL
     Grant Funds....................................................................................................... 6

APPENDICES.......................................................................................................... 15
   A. Background..................................................................................................... 17

   B. Objective, Scope, Methodology, and Criteria .................................................. 19

   C. Acronyms and Abbreviations .......................................................................... 23

   D. Agency Response........................................................................................... 25




U.S. Department of Labor—Office of Inspector General                                                                   1
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported




Executive Summary
In February and June 2004, we received two separate complaints with numerous
allegations which, in general, alleged that the St. Charles County, Missouri,
Department of Workforce Development (DWD) overcharged Department of Labor
(DOL) grants. We audited the DOL grants at DWD to determine if the allegations
could be substantiated.

St. Charles County is a grant subrecipient of workforce development funds under the
Workforce Investment Act (WIA) and Welfare-to-Work (WtW) programs from the
Missouri Division of Workforce Development (Missouri). The County Executive
delegated responsibility to administer these grants to DWD, while the County
Municipal Code assigns the County Department of Finance (DOF) the responsibility
for maintaining the financial records of the entire County, including DWD. DWD
received approximately $5.4 million in WIA and WtW funds, as well as funding for
other Federal programs, during our audit period July 1, 2000 through July 31, 2004.

Results

The complainants made several allegations which, in general, alleged that DWD
overcharged DOL grants. We cannot conclude on the merits of these allegations
because of a lack of critical documentation showing how costs actually were
allocated to the DOL grants. However, since DWD and DOF could not provide
critical records to account for DOL grant funds, they cannot support their claim for
reimbursement to Missouri. Therefore, we are questioning all WIA and WtW grant
costs, totaling $4,110,061 for the period July 1, 2000 through July 31, 2004.

We determined that two of the allegations were without merit. The public accounting
firm that performed the 2001, 2002, and 2003 single audits did not audit only
revenue, as alleged. DWD did not reimburse DOF for workers’ compensation
premiums through payroll withholding, as alleged.


Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   •   In lieu of DWD’s missing crosswalk spreadsheets used to allocate costs to
       DOL programs, direct Missouri to submit alternative documentation to support
       the claimed cost allocations of $4,110,061 reimbursed to DWD for the period
       July 1, 2000 through July 31, 2004. Based on ETA’s determination, recover
       unallowable or unsupportable costs.

U.S. Department of Labor—Office of Inspector General                                    3
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported


    •   Direct Missouri to ensure that:

           o DWD allocates costs to DOL programs in accordance with the relative
             benefits received.
           o DWD and DOF maintain adequate records to account for all
             expenditures of DOL program funds.

Grantee Response

The DWD Director and the County are deeply concerned about the disappearance
of records that existed during earlier monitoring reviews and the Single Audits. The
County has crosswalk spreadsheets from July 2003 forward and alternative
documentation to support the claimed cost allocations and direct costs for the period
July 1, 2000 through July 31, 2004. Missouri intends to submit this alternative
documentation as evidence of the clients served by these programs and the
expenditures made on behalf of these programs to assure DOL that these grants
were accounted for, and used to serve clients for which the grants were intended.

The response did not address Missouri’s actions to ensure that DWD allocates costs
to DOL programs in accordance with the relative benefits received, or Missouri’s
actions to ensure that DWD and DOF maintain adequate records to account for all
expenditures of DOL program funds.

OIG Conclusion

The response to our draft report did not provide any additional information that
caused us to revise our findings and recommendations.

All the recommendations will be resolved as part of ETA’s audit resolution process.
We attached the Missouri and County response in its entirety to this report as
Appendix D.




4                                     U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                       Assistant Inspector General’s Report


Emily Stover DeRocco
Assistant Secretary
 for Employment and Training

In February and June 2004, we received two separate complaints with numerous
allegations which, in general, alleged that the St. Charles County, Missouri,
Department of Workforce Development (DWD) overcharged Department of Labor
(DOL) grants. We audited the DOL grants at DWD to determine if the allegations
were substantiated.

St. Charles County is a grant subrecipient of workforce development funds under the
Workforce Investment Act (WIA) and Welfare-to-Work (WtW) programs from the
Missouri Division of Workforce Development (Missouri). The County Executive
delegated responsibility to administer these grants to DWD, while the County
Municipal Code assigns the County Department of Finance (DOF) the responsibility
for maintaining the financial records of the entire County, including DWD. DWD
received approximately $5.4 million in WIA and WtW funds, as well as funding for
other Federal programs, during our audit period July 1, 2000 through July 31, 2004.

The complainants made several allegations which, in general, alleged that DWD
overcharged DOL grants. We cannot conclude on the merits of these allegations
because of a lack of critical documentation showing how costs actually were
allocated to the DOL grants. However, since DWD and DOF could not provide
critical records to account for DOL grant funds, they cannot support their claim for
reimbursement to Missouri. Therefore, we are questioning all WIA and WtW grant
costs, totaling $4,110,061 for the period July 1, 2000 through July 31, 2004.

We determined that two of the allegations were without merit.




U.S. Department of Labor—Office of Inspector General                                    5
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported


Objective – Were the Allegations Substantiated?

Results

A complainant alleged that the public accounting firm that performed the 2001, 2002,
and 2003 single audits for the County audited DWD revenue and not the expenditure
accounts. We reviewed the firm’s working papers applicable to DWD’s audit each
fiscal year. The working papers show that because the DOL grants were not a
significant County program, the auditors verified DWD’s grant proceeds received
and a limited number of expenditures charged to the grant activities. We found this
allegation to be without merit.

During our audit period, the County was self-insured for workers’ compensation.
DWD was not liable for any workers’ compensation premiums. A complainant
alleged that DOF was charging DWD for the cost of workers’ compensation
premiums. We selected a judgmental sample of 14 payroll registers from
July 1, 2000 through June 30, 2004, to determine if the employer’s cost for workers’
compensation was shown in the payroll register. Since a calculation for workers’
compensation appeared, we traced salaries and fringe benefits from the payroll
register to the County general ledger. We concluded that DOF was not charging
DWD for workers’ compensation premiums through payroll withholding because
workers’ compensation costs were not recorded in the general ledger. DOF
representatives explained that the cost of workers’ compensation was shown on the
payroll registers because DOF was calculating the amount to set aside for these
benefits for another non-DOL program. This allegation is without merit.

Finding – DWD and DOF Cannot Support their Reimbursement Claim to
Missouri for DOL Grant Funds.

The complainants made several allegations which, in general, alleged that DWD
overcharged DOL grants. We cannot conclude on the merits of these allegations
because of a lack of critical documentation showing how costs actually were
allocated to the DOL grants. Because the DOL grants were not a significant County
program, the public accounting firm performing the County single audit tested only a
limited number of DWD expenditures in 2001, 2002, and 2003 to meet the
requirements of the Single Audit Act. However, since DWD and DOF could not
provide critical records to the OIG to account for DOL grant funds, they cannot
support their claim for reimbursement to Missouri. Therefore, we are questioning all
WIA and WtW grant costs, totaling $4,110,061 for the period July 1, 2000 through
July 31, 2004.

DWD managed several state and Federal programs from different funding streams.
It is subject to OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal


6                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


Governments, which details principles providing that Federal awards bear their fair
share of cost.

OMB Circular A-87, Attachment A, Section C.3.a states:

       A cost is allocable to a particular cost objective if the goods or
       services involved are chargeable or assignable to such cost objective
       in accordance with the relative benefits received.

DWD defined how it would allocate costs that are for the direct benefit of one or
more programs in a cost allocation plan. DWD provided us with several undated
cost allocation plans, but the methodologies were similar.

The allocation plans stated that payroll costs of the various programs would be
allocated based on an employees’ semi-monthly timesheet. The timesheet is
designed for the employee to record the hours he/she worked on a program, took
leave, or attended training. Employee wages and fringe benefits for the month were
to be charged to the program based on the total hours charged to the program.
Leave and training hours were to be entered into a pooled category and then
allocated based on the ratio of hours worked on each program.

The allocation plans further stated that non-personnel costs, such as supplies, rent,
utilities, telephone, and leased equipment, would be pooled into one group and
allocated to the various programs based on the payroll costs of benefiting programs
for the month. Beginning in approximately 2002, space and utility costs were to be
allocated based on usage by each program.

Due to a lack of documentation, specifically crosswalk spreadsheets, we were
unable to perform our audit testing to determine if DOL grants were overcharged for
the period July 2000 through September 2001. According to DWD staff, the payroll
cost allocations for the various DWD programs, including the formulas and
calculations, were performed on crosswalk spreadsheets. However, DWD was
unable to provide these essential audit trail documents. The crosswalk
spreadsheets provided the detail support for the monthly amounts on the Declining
Balance Reports and the Contract Progress Reports (DWD’s claim to Missouri).

DWD staff later informed us that they could not provide the crosswalk spreadsheets
through July 31, 2004, our audit cut-off. Further, the Declining Balance Reports
were not available after September 2001. Because of a lack of critical
documentation showing how costs actually were allocated to DOL grants, DWD and
DOF cannot support their reimbursement claim to Missouri for DOL grant funds.

Title 29 CFR Part 97 (Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments) and the Municipal Code


U.S. Department of Labor—Office of Inspector General                                    7
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported


of St. Charles County require that documentation be retained to support the claim.
Specifically, 29 CFR 97, Section 97.20 (b) states:

       The financial management systems of other (non-State) grantees and
       subgrantees must meet the following standards:

          … (2) Accounting records. Grantees and subgrantees must
          maintain records which adequately identify the source and
          application of funds provided for financially-assisted activities.
          These records must contain information pertaining to grant or
          subgrant awards and authorizations, obligations, unobligated
          balances, assets, liabilities, outlays, or expenditures, and income.

          … (6) Source documentation. Accounting records must be
          supported by such source documentation as cancelled checks, paid
          bills, payrolls, time and attendance records, contract and subgrant
          award documents, etc.

29 CFR Part 97, Section 97.42 (b) requires that financial records be retained for
3 years from the date of submission of the last expenditure report of the program
year:

       Length of retention period. (1) Except as otherwise provided, records
       must be retained for three years from the starting date specified in
       paragraph (c) of this section.

Section (c) states that the starting date is the date subgrantee submits its last
expenditure report for the period. DWD submitted its last expenditure report on
Program Year 2000 grants on its April 30, 2002 Contract Progress Report.
Therefore, DWD’s records from July 1, 2000, should have been available when we
began fieldwork in September 2004.

The Municipal Code of St. Charles County required that DOF maintain
documentation of all expenditures for DWD. This should have included supporting
documentation, such as the crosswalk spreadsheets, Declining Balance Reports,
and Contract Progress Reports sent to Missouri. Specifically, Section 130.055 C
states:

       The Director of Finance shall keep account of all appropriations and
       expenditures made by St. Charles County’s governing body,
       departments, divisions, bureau, commissions, boards and officers.

Since the crosswalk spreadsheets were not available, we used other analytical
methods to attempt to determine if DOL paid its fair share of DWD’s costs. We
found several indications (detailed below) that DWD did not properly allocate costs

8                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


to DOL programs. However, because of the lack of critical records, we could not
determine the extent of the misallocation.

Costs Were Not Based on the Methodology in the Cost Allocation Plans.

We analyzed 8 months of DWD programs’ Declining Balance Reports, which were
only available for the period July 2000 through September 2001. Our analysis was
to determine if non-personnel costs were allocated to the various programs based
on payroll costs, as outlined in the cost allocation plans. We found that:

       •   The percentage of DWD costs allocated to all WIA program grants
           for rent, utilities, telephone, and leased equipment usually
           exceeded the percentage allocated for salaries and fringe benefits,
           as shown below:

                                                                       Leased
      Month               Salaries   Rent     Utilities   Telephone
                                                                       Equipment
      July 2000             28%       97%       96%          99%          100%
      August 2000           10%      100%      94%           99%          100%
      September 2000        45%       38%       60%          98%           48%
      December 2000         37%        0%      100%          95%          100%
      May 2001               7%       98%       82%          83%           99%
      July 2001             53%       92%       72%          99%           78%
      August 2001           49%       97%      81%           96%           95%
      September 2001        44%       91%       65%          95%           76%

       •   Non-personnel costs were frequently billed to certain WIA program
           grants (e.g. adult, youth, and dislocated workers) in months when
           the program was charged for no salaries or fringe benefits.

       •   There were discrepancies between Salaries and Fringe Benefits.
           For example:

              a. In August 2000, DWD charged $628 to fringe benefits, but
                 charged no salaries in the WtW 70 percent portion of the
                 program.
              b. In May 2001, DWD charged $19,267 to salaries, but charged
                 no fringe benefits in the WtW Demo program.

DWD’s allocation of program costs was rarely based on the methodology outlined in
DWD’s cost allocation plans. Further, costs were not charged to the grants in
accordance with the relative benefits received, as required in OMB Circular A-87,
Attachment A, Section C.3, cited above.




U.S. Department of Labor—Office of Inspector General                                    9
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported


Employees Submitted Presigned Blank Timesheets.

We found that 12 employees submitted presigned blank timesheets for the first
semimonthly payroll for November 2001. We contacted one of these employees
who confirmed he/she signed a blank timesheet. During our payroll testing from
July 2000 through September 2001, we also identified another presigned blank
timesheet. When timesheets are prepared by someone other than the employee,
there is no assurance that they reflect the actual activity of the employee.

OMB Circular A-87, Attachment B, Section 11h (5) requires that timesheets reflect
an after-the-fact distribution of the actual activity of each employee:

       Personnel activity reports or equivalent documentation must meet the
       following standards: (a) they must reflect an after-the-fact distribution
       of the actual activity of each employee, (b) they must account for the
       total activity for which each employee is compensated, (c) they must
       be prepared at least monthly and must coincide with one or more pay
       periods, and (d) they must be signed by the employee.

The practice of completing blank timesheets is in violation of OMB Circular A-87
because there is no assurance that DWD’s allocation of payroll costs was based on
the actual activity of each employee.

There Was No Record of Payment or Allocation for Workers’ Compensation Claims.

A memorandum from DOF, dated July 15, 2002, informed DWD that it would be
charged for workers’ compensation claims for the months of January through
April 2002. We were told that while the County was self-insured and paid the claims
from the general fund, it was DOF’s practice to bill each agency for these claims.

We reviewed DWD‘s general ledger accounts with a DOF representative and
concluded that DWD’s general ledger did not contain an insurance account.
However, we could not determine if DWD reimbursed DOF from another account
and allocated workers’ compensation claims to DOL grants because of a lack of
documentation.

Summary

The crosswalk spreadsheets provided the detail support for the monthly amounts on
the Declining Balance Reports and the Contract Progress Reports (DWD’s claim to
Missouri). However, DWD was unable to provide these essential audit trail
documents for our audit period. Our analysis indicates that DOL was not allocated
its proper share, as follows:



10                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


       •   Costs were not based on the methodology in the cost allocation plans.
       •   Employees submitted presigned blank timesheets.
       •   There was no record of allocation for workers’ compensation liability
           claims.

Since DWD and DOF could not provide critical records to account for DOL grant
funds, they cannot support their claim for reimbursement to Missouri. Therefore, we
are questioning all WIA and WtW grant costs, totaling $4,110,061 for the period
July 1, 2000 through July 31, 2004, broken down by program year as follows:

                 PROGRAM YEAR              WIA          WtW         Total
            PY 2000 – July 1, 2000 –      $905,961     $407,583    $1,313,544
            June 30, 2001
            PY 2001 – July 1, 2001 –       981,255       90,541     1,071,796
            June 30, 2002
            PY 2002 – July 1, 2002 –       703,809        4,033       707,842
            June 30, 2003
            PY 2003 – July 1, 2003 –       871,515                    871,515
            June 30, 2004
            PY 2004 – July 1, 2004 –       145,364                    145,364
            July 31, 2004
            Total                       $3,607,904     $502,157    $4,110,061



Recommendations

Our draft report had 3 recommendations to address conditions described in this
finding. The recommendations, Missouri’s response to each recommendation, and
the Auditor’s conclusion for each recommendation follow:

Recommendation 1

We recommend that the Assistant Secretary for Employment and Training, in lieu of
DWD’s missing crosswalk spreadsheets used to allocate costs to DOL programs,
direct Missouri to submit alternative documentation to support the claimed cost
allocations of $4,110,061 reimbursed to DWD for the period July 1, 2000 through
July 31, 2004. Based on ETA’s determination, recover unallowable or
unsupportable costs.

Response

The DWD Director and the County are deeply concerned about the disappearance
of records that clearly existed during the period July 2000 through July 2004. The
County stated that these records were available for state monitoring reviews and
Single Audits. The County has crosswalk spreadsheets from July 2003 forward and


U.S. Department of Labor—Office of Inspector General                                   11
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported


alternative documentation to support the claimed cost allocations and direct costs for
the period July 1, 2000 through July 31, 2004.

Missouri intends to submit this alternative documentation as evidence of the clients
served by these programs and the expenditures made on behalf of these programs
to assure DOL that these grants were accounted for, and used to serve clients for
which the grants were intended.

Auditor’s Conclusion

This recommendation will be resolved as part of ETA’s audit resolution process.

Recommendation 2

We recommend that the Assistant Secretary for Employment and Training direct
Missouri to ensure that DWD allocates costs to DOL programs in accordance with
the relative benefits received.

Response

The response did not address Missouri’s actions to ensure that DWD allocates costs
in accordance with the relative benefits received. The County’s response inferred
that their cost allocation methodology is adequate because Missouri’s monitoring
review in 2004 indicated the CPRs were reconciled to the crosswalk spreadsheets
with no exceptions.

Auditor’s Conclusion

Since the crosswalk spreadsheets were not available, we used other analytical
methods to attempt to determine if DOL paid its fair share of DWD’s costs. The
report lists several indications that DWD did not properly allocated costs to DOL
programs (see “Costs Were Not Based on the Methodology in the Cost Allocation
Plans,” page 9). This recommendation will be resolved as part of ETA’s audit
resolution process.

Recommendation 3

We recommend that the Assistant Secretary for Employment and Training direct
Missouri to ensure that DWD and DOF maintain adequate records to account for all
expenditures of DOL program funds.




12                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


Response

The response did not address Missouri’s actions to ensure that DWD and DOF
maintain adequate records.

DOF maintains records which identify the source and application of grant funded
activities, including information on obligated funds, unobligated funds, assets,
liabilities, outlays, etc. Further the County can support its use of such funds with
procurement records and checks, paid bills, time and attendance records, etc.

The County believes that DWD, not the Director of Finance, is responsible for
maintaining records of DWD. The County cites Section 130.050 D of the Municipal
Code to support this assertion:

       The Director of Finance shall be responsible for the development,
       implementation and maintenance of a system which allows him to
       process all accounts payable of St. Charles County including accepting
       requests for payment of goods or services, approving such requests if
       such requests are within the guidelines of the Department’s budget
       and issuing payment.

The County believes the OIG is misinterpreting Section 130.055 C (see report
page 8).

Auditor’s Conclusion

Missouri, as grant recipient, is responsible for maintaining adequate documentation
to support the claim to DOL, in accordance with 29 CFR 97.20 and 97.42 (see report
page 8). Per the contract between Missouri and St. Charles County, the County is
required to meet the same regulations. As fiscal agent for the County, DOF is
accountable for maintaining records of all County departments, including DWD.

DOF must account for the overall use of DWD funds, as well as source
documentation – in this case, the crosswalk spreadsheets – to support its claim to
Missouri, and ultimately, DOL. This source documentation was not available for
audit. This recommendation will be resolved as part of ETA’s audit resolution
process.




Elliot P. Lewis
March 24, 2006




U.S. Department of Labor—Office of Inspector General                                   13
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported




Appendices




U.S. Department of Labor—Office of Inspector General                                   15
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


                                                                           APPENDIX A
BACKGROUND


WIA was designed to reform the Federal job training system. WIA’s primary purpose
is to increase the employment, retention, and earnings of its participants, and
increase occupational skills attainments by participants. DOL provides grant funding
to the states to operate the WIA program. The states, in turn, select local operators
to deliver services directly to participants.

The State of Missouri implemented WIA on July 1, 2000. The Missouri Division of
Workforce Development (Missouri) is the state agency responsible for administering
the WIA program. Missouri established Local Workforce Investment Areas (LWIAs)
to operate the WIA program and deliver services. The Local Workforce Investment
Board in each local area sets WIA policy for each area. Missouri selected
St. Charles County to operate LWIA 14, and act as the grant recipient for workforce
development funds under WIA.

In August 1996, the Personal Responsibility and Work Opportunity Reconciliation
Act reformed the nation’s welfare laws. A system of block grants to the state for
Temporary Assistance for Needy Families (TANF) was created, changing the nature
and provision of the welfare benefits in America. Moving people from welfare to
work is one of the primary goals of Federal welfare policy.

The Balanced Budget Act of 1997 amended certain TANF provisions of the Social
Security Act and authorized the Secretary of Labor to provide WtW grants to states
and local communities for transitional assistance to move TANF welfare recipients
and eligible non-custodial parents into unsubsidized jobs and economic self-
sufficiency. St. Charles County also operates the WtW program in LWIA 14.

The County Executive delegated responsibility to administer these grants to DWD,
while the County Municipal Code assigns DOF the responsibility for maintaining the
financial records of the entire County, including DWD. DWD receives funding from
the U.S. Departments of Labor, Transportation, and Agriculture. DWD received
grant revenue from Missouri to operate the WIA program (including Adult, Youth,
and Dislocated Workers) and WtW totaling approximately $5.4 million for the audit
period (July 1, 2000 through June 30, 2004).

In February and June 2004, we received two separate complaints with numerous
allegations at DWD. Two allegations included specific details on the topic of single
audits and workers’ compensation premiums. The other allegations consisted of
numerous charges that, in general, alleged that DWD overcharged DOL grants.




U.S. Department of Labor—Office of Inspector General                                   17
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


                                                                           APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA


Objective

The objective of our audit was to determine the merits of allegations received in two
hotline complaints.

Scope

Our audit period was July 1, 2000 through July 31, 2004.

Our audit scope included allegations in the following categories:

        •   single audit (See Results, page 6)
        •   workers’ compensation premiums (See Results, page 6)
        •   DWD overcharged DOL grants (See Finding, page 6)

Due to a lack of documentation, specifically crosswalk spreadsheets, we were
unable to perform our audit testing to determine if DOL grants were overcharged.
The payroll cost allocations for the various DWD programs, including the formulas
and calculations, were performed on crosswalk spreadsheets. However, DWD was
unable to provide these essential audit trail documents. The crosswalk
spreadsheets provided the detail support for the monthly amounts on the Declining
Balance Reports and the Contract Progress Reports (DWD’s claim to Missouri).
Because of a lack of critical documentation showing how costs actually were
allocated to DOL grants, DWD and DOF cannot support their reimbursement claim
to Missouri for DOL grant funds, as required by 29 CFR 97, Section 97.20 (b).

During audit testing, we judgmentally selected a sample of 14 payroll registers from
84 payroll registers during our audit period to compare payroll deductions for
workers’ compensation premiums in the payroll register to the general ledger.
Further, we selected a random sample of 10 months during the period July 2000
through September 2001 to test payroll. We also analyzed 8 monthly Declining
Balance Reports from a total of 18 Reports available.

Methodology

To determine the merits of these allegations, we interviewed the identified
complainant. We also interviewed representatives of DWD and DOF responsible for
administering the program and the financial records. We reviewed a variety of
materials, including cost allocation plans, Declining Balance Reports, timesheets,
general ledgers, payroll registers and single audit report workpapers. We reviewed

U.S. Department of Labor—Office of Inspector General                                   19
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported


monitoring reports, grants, and Contract Progress Reports provided by Missouri.
We also interviewed County employees who worked at DWD during our audit period.

To meet our objectives, we reviewed DWD and DOF management controls over
relevant activities. Our management controls work included obtaining and reviewing
policies and procedures, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing of management controls
focused only on the controls related to our audit objective of reviewing the
complainants’ allegations and was not intended to form an opinion on the adequacy
of overall management controls, and we do not render such an opinion.
Weaknesses noted in our testing are discussed in the Finding in this report.

Our testing determined DWD’s compliance with Title 29 CFR 97 and OMB
Circulars A-87 and A-133. This testing was not intended to form an opinion on
compliance with laws and regulations as a whole, and we do not render such an
opinion.

We conducted our performance audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and we
performed such tests as we considered necessary to satisfy our audit objective.
Because our objective was limited to assessing the merits of the allegations, we did
not test St. Charles County internal controls and, therefore, we do not provide any
assurance over the extent to which internal controls were properly designed or
operating in St. Charles County.

Criteria

We used the following criteria to perform this audit:

     •   Title 29 CFR 97 – Uniform Administrative Requirements for Grants and
         Cooperative Agreements to State and Local Governments
     •   Circular A-87 – Cost Principles for State, Local, and Indian Tribal
         Governments
     •   Circular A-133 – Audit of States, Local Government and Non-Profit
         Organizations
     •   The Municipal Code of St. Charles County
     •   Contract Agreements between Missouri, Division of Workforce Development
         and St. Charles County:

         DWD 10-14-14-01 signed July 6, 2000
         DWD 99-14-14-01 signed September 27, 2000
         DWD 10-14-14-02 signed April 18, 2001
         DWD 99-14-14-02 signed August 10, 2001
         DWD 10-14-14-03 signed June 26, 2002


20                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


       DWD 99-14-14-03 signed August 28, 2002
       DWD 10-14-14-04 signed May 28, 2003
       DWD 99-14-14-04 signed October 1, 2003
       DWD 10-14-14-05 signed July 1, 2004
       DWD 99-14-14-05 signed July 28, 2004




U.S. Department of Labor—Office of Inspector General                                   21
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


                                                                           APPENDIX C
ACRONYMS AND ABBREVIATIONS


       CFR                  Code of Federal Regulations
       DOF                  St. Charles County, Department of Finance
       DOL                  U. S. Department of Labor
       DWD                  St. Charles County, Department of Workforce
                            Development
       LWIA                 Local Workforce Investment Area
       OMB                  Office of Management and Budget
       TANF                 Temporary Assistance for Needy Families
       WIA                  Workforce Investment Act
       WtW                  Welfare-to-Work




U.S. Department of Labor—Office of Inspector General                                   23
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported


                                                                           APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                   25
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




26                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported




U.S. Department of Labor—Office of Inspector General                                   27
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




28                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported




U.S. Department of Labor—Office of Inspector General                                   29
Report Number: 05-06-001-03-390
St. Charles County’s Department of Workforce
Development Claim to Missouri Is Unsupported




30                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-06-001-03-390
                                              St. Charles County’s Department of Workforce
                                             Development Claim to Missouri Is Unsupported




U.S. Department of Labor—Office of Inspector General                                   31
Report Number: 05-06-001-03-390
